      Department of Homeland Security




   Review of Costs Invoiced by the City of Atlanta,
   Georgia, Relating to the Maynard H. Jackson, Jr.
      International Terminal Checked Baggage
     Screening Project Under Other Transaction
      Agreement Number HSTS04-09-H-REC154
            Awarded by the Transportation
                 Security Administration




            American Recovery and Reinvestment Act of 2009



OIG-12-60                                                    March 2012
 

                                                         Office of Inspector General

                                                         U.S. Department of Homeland Security
                                                         Washington, DC 20528




                           March 21, 2012

MEMORANDUM FOR:		            Kelly Hoggan
                             Acting Assistant Administrator for Security Technology
                             Transportation Security Administration

FROM: 	                      Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:	 	                  Review of Costs Invoiced by the City of Atlanta, Georgia,
                             Relating to the Maynard H. Jackson, Jr. International
                             Terminal Checked Baggage Screening Project Under
                             Other Transaction Agreement Number HSTS04-09-H­
                             REC154 Awarded by the Transportation Security
                             Administration

Attached for your information is our final letter report, Review of Costs Invoiced by the
City of Atlanta, Georgia, Relating to the Maynard H. Jackson, Jr. International Terminal
Checked Baggage Screening Project Under Other Transaction Agreement Number
HSTS04-09-H-REC154 Awarded by the Transportation Security Administration. We
incorporated the formal comments from the Administrator in the report.

The report contains one recommendation to resolve unsupported costs of $1,354,740 

invoiced by the City of Atlanta. The Administrator concurred with the recommendation. 

Within 90 days of the date of this memorandum, please provide our office with a written 

response that includes a target completion date or documentation that corrective actions 

have been completed. Until your response has been received and evaluated, the 

recommendations will be considered open and unresolved. 


Consistent with our responsibility under the Inspector General Act, we are providing
 

copies of our report to appropriate congressional committees with oversight and 

appropriation responsibility over the Department of Homeland Security. We will post the 

report on our website for public dissemination. 


Should you have any questions, please call me, or your staff may contact 

John E. McCoy II, Deputy Assistant Inspector General for Audits, at (202) 254-4100. 


Attachment
 

Background
On February 17, 2009, Congress enacted the American Recovery and Reinvestment Act of
2009, as amended (Recovery Act) to preserve and create jobs, promote economic
recovery, and invest in transportation, environmental protection, and other infrastructure
that will provide long-term economic benefits. The Recovery Act appropriated $1 billion
to the Transportation Security Administration (TSA) for “procurement and installation of
checked baggage explosives detection systems and checkpoint explosives detection
equipment….” According to TSA, it awarded $574,023,483 of that amount to 25 airport
organizations for 29 projects modifying airports to accommodate new baggage-screening
equipment.

Under Other Transaction Agreement (OTA) No. HSTS04-09-H-REC154, TSA agreed to
reimburse the City of Atlanta (City) for 90% of allowable, allocable, and reasonable costs
to support installation of a Checked Baggage Inspection System (CBIS) at the Maynard
H. Jackson, Jr. International Terminal at the Hartsfield-Jackson International Airport.
The OTA cost ceiling is $20 million and covers project design, management, and
construction for the CBIS portion of the terminal’s overall baggage handling system,
which cost $55.9 million.

The OTA was signed on September 21, 2009; specifies a project period from May 1,
2009, through December 31, 2012; and requires the City to submit invoices for
reimbursement of project costs to TSA. Reimbursement for eligible project costs is based
on the scope of the agreement; Office of Management and Budget (OMB) Circular A-87,
Revised, Cost Principles for State, Local and Indian Tribal Governments; and TSA
publication Reimbursable/Non-Reimbursable Costs for the Electronic Baggage Screening
Program, version 1.0, June 2008. As of March 2011, the City invoiced costs of
$12,816,163 for CBIS installation, which included $916,914 for design services and
$437,826 for project and construction management. The costs invoiced by the City
represent 90% of the costs incurred.

The agreement also requires the City to comply with the OMB Circular A-133, Revised,
Audits of States, Local Governments, and Nonprofit Organizations, and Recovery Act
provisions to submit quarterly recipient reports to the federal government; pay prevailing
wages as determined by the Secretary of Labor under 40 U.S.C., Chapter 31, Subchapter
IV; and use American 1 iron, steel, and manufactured goods.

The objective of this audit was to determine whether costs invoiced by the City are
allowable, allocable, and reasonable according to the funding agreement and applicable
federal requirements.


1
 On October 13, 2009, the Department of Homeland Security (DHS) issued a limited waiver of the “buy
American” requirements for each TSA Electronic Baggage Screening Program project. The waiver
specifies that at least 95% of the costs of each project will comply with buy American requirements of
section 1605 of the Recovery Act, and allows up to 5% of total project costs to be used for non-American
products.

                                                    2
Results of Review
We determined that invoiced costs of $11,461,423 for construction were allowable,
allocable, and reasonable. However, $1,354,740 invoiced for design services ($916,914)
and project and construction management ($437,826) is questionable for reimbursement
because the amount is not based on costs incurred but instead was calculated based on the
guidance for determining a ceiling on the amounts that may be invoiced for these
categories of costs. We also concluded that the City complied with the requirements for
submitting quarterly reports; for paying prevailing wages; and for using American iron,
steel, and manufactured goods in the construction of the Recovery Act project.

Unsupported Project and Construction Management and Design Costs of $1,354,740

The OTA specifies a ceiling for design costs of 8% of the total TSA-funded amount and
for project and construction management of 4% of the total TSA-funded amount. The
City computed $916,914 for design costs by applying the 8% to construction costs of
$11,461,424 and invoiced for 90% of that amount. The City computed the $437,826 in
project and construction management in a similar manner, using a rate of 3.82%. The
City chose to use 3.82% instead of 4%. In neither case were the rates or amounts
supported by the accounting records. The OTA is a cost-reimbursable agreement and
specifies that TSA will reimburse the City for the allowable, allocable, and reasonable
cost of the project according to OMB Circular A-87. We questioned the $1,354,740
invoiced for design and project and construction management because it does not
represent a properly supported cost as required by Circular A-87.

Following our exit conference on November 10, 2011, City officials wrote that the City’s
Department of Aviation (DOA) “acknowledges the audit observations and specifically
the finding that the DOA utilized a percentage allocation methodology for design and
project management costs which conflicts with the OTA and the OMB Circular A-87
guidance.” City officials also responded that DOA had incurred eligible design and
project management costs and that it had informed TSA of the allocation method that it
would use to invoice for these types of costs. Finally, the City said that the DOA will
collaborate with the TSA to determine an equitable basis for documenting these project
expenses.

Compliance With Requirements for Reporting, Paying Prevailing Wages, and
Buying American

The Recovery Act requires recipients to submit quarterly reports on project activities to
the federal government; pay prevailing wages; and ensure that projects are accomplished
with American-made iron, steel, and manufactured goods. We verified that the City
submitted the quarterly reports, paid prevailing wages, and complied with the Buy
American provisions.




                                            3
Recommendation
We recommend the TSA’s Contracting Officer resolve the $1,354,740 of unsupported
costs.

Management Comments and OIG Analysis
TSA Comments to Recommendation

TSA concurs with the recommendation, and has said that it will “work with the City of
Atlanta to determine the amount of design and construction management costs incurred
for the Checked Baggage Inspection System (CBIS) project.”

OIG Analysis

The TSA decision responds sufficiently to the recommendation. However, the
recommendation will remain unresolved until TSA provides us with a written response
that includes target completion dates for the recommendation or documentation that
corrective actions have been completed.




                                           4
Appendix A
Purpose, Scope, and Methodology


The objective of this audit was to determine whether costs invoiced by the City of Atlanta
are allowable, allocable, and reasonable according to the funding agreement and
applicable federal requirements. Our audit covered invoiced costs of $12,816,163 for the
period May 2009 through March 2011. This represents the total amount invoiced as of
March 22, 2011.

Our tests and procedures included the following:

        Reviewing TSA project files, the award agreement and modifications, the
        Recovery Act, and TSA and OMB guidelines;
        Interviewing TSA officials to get an understanding of the project and project
        management;
        Examining DOA and its Hartsfield-Jackson (Airport) Development Program (H-
        JDP)2 accounting records supporting the amounts invoiced;
        Interviewing project contractors and DOA officials to obtain an understanding of
        project management, accounting, procurement, and invoicing;
        Inspecting the CBIS project;
        Performing fraud detection procedures; and
        Testing H-JDP and DOA records supporting costs invoiced to determine
        compliance with OMB Circular A-87 and with other terms and conditions of the
        agreement.

We considered H-JDP and DOA internal controls over the administration of TSA funds
in determining our audit procedures. Our audit was conducted without the benefit of a
technical evaluation by TSA; therefore, our conclusions are qualified to the extent that a
technical evaluation may affect the allowability of invoiced costs. However, we
coordinated our review with appropriate contracting officials

We conducted this performance review between July and November 2011 pursuant to the
Inspector General Act of 1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our
audit objectives.

We appreciate the cooperation of the City of Atlanta and TSA officials in providing the
information and access necessary to accomplish this review.




2
 The Hartsfield-Jackson Development Program provides DOA with the program management for the
construction of the Maynard H. Jackson, Jr. International Terminal.

                                                5
Appendix B
Management Comments to the Draft Letter Report



                                                                                      lkp'''IM.,.r H......"'" SKorily
                                                                                1\01 South 12thS.....
                                                                                Arl;"&'O". W.. 2lJS.~

                                                                                Transportation
                                                                                Security
                                                                                Administration




             NAIl -1 2012                        INFORMATION


         MEMORANDUM FOR:               Charles Edwards
                                       Acting Inspector General
                                       U.S. Department of Homeland Set:urity

                                  ( jO'OP;"o,,g;J~,rkh a/
                                  \JldmlnlsyItFr'

         SUBJECT:                      Transportation Security Administration's (TSA) Response to the
                                       U.S, Department of Homeland Security (DHS) Office of Inspector
                                       General's (OIG) Draft Report titled Review ofCosIS Invoiced by
                                       Ihe CiO' ofA/fan/a. Georgia, Relaling 10 Ihe Maynard H. Jachon,
                                       Jr. In/emmional Terminal Checked Baggage Screening Projecl
                                       Under Olher Trrl/1.l'oc/ioll Agreemem Number HSTS04-09-H­
                                       RECl5.J - FOUO, dated January 20, 2012"




         This memorandum constitutes TSA's fonnal Agency response to the Department of Homeland
         Security (DHS). Office of Inspector General (OIG) draft leller report. Review ofCosts In,"oice,/
         by the City ofA/Ian/a. Georgia, Reiming 10 Ihe M(jyn(lrd H. Jackson. Jr. Imern(/Iion(ll Termi/wl
         Cheeke'/ Baggage Screening PfOjec! Under Olher Tram'action Agreemem Number HSTS04-09­
         H-RECI5.J - For Official Usc Only (FOUO), dated January 20. 2012. TSA appreciates thc
         opportunity to revicw and provide comments to your draft report.

         Background

         As part of the American Recovery and Reinvestment Act of2009 (ARRA), TSA was
         appropriated 51 billion for "procurement and inSlallation of checked baggage explosives
         detection syStems and checkpoint explosives detection equipment. .. '· TSA has awarded more
         than $500 million in ARRA funding to airport organi...alions for modifying facilities 10
         accommodate new b:lggage.screening equipment through the l:!cctronic Baggage Screening
         Program (EBSP).




                                                        6

Appendix B
Management Comments to the Draft Letter Report



                                                                                                                              2



         One of these ARRA awards was 10 the City of Atlanta (Ihe City) for a Checked Baggage
         Inspection System (C81S) project allhe Maynard H. Jackson. Jr. International leonina! at
         Hartsfield-Jackson Atlanta International Airport (ATL) through an Olher Transaction Agre\'menl
         (OTA) dated September 21, 2009. Through lhe OTA. TS,\ agreed to reimburse the City for 90
         percent of eBls project COsIS, including design and construction management. nOI to exceed
         $20 million. As of March 20 II, the City invoiced costs ofS12,816,163 for Ihe eBIS projcct.

         Discussion

         The results orlhe audit detennined that $11.461.424 of the tOlal costs invoiced by lhe City were
         allowable. allocable. and reasonable; however, $1 .354.740 of invoiced costs were questionable
         because they wen,: not incurred costs. lbe $1,354.740 of questioned costs consists ofS916,914
         for design services and $437.826 for construction management. The OTA provides a ceiling for
         reimbursement of design costs to 8 perccnt and of construction management costs to 4 percent of
         thc tOl.11 TSA funded amount. The GIG detennined that the City computed the invoiced design
         and construction management costs by applying the respectivt: 8 percent and 4 percent
         reimbursememlimits t • and thus these amounts were not based on incurred costs. As reflected in
         the draft report. the City indicated thatlhey have inCUlTCd eligible design and project
         management costs. TSA will work with the City to detemllne the correct reimbursement
         amounts for these incurred costs.

         The draft rcport also rencets that the City complied with requisite quarterly reporting. paytnt:nt
         of pfCvailing wage rates. and Buy American Act requirements.

         TSA concurs with the recommendation made in the subject draft report and wil1take the actions
         net:essary to resolve the issue.




         1 Th~ OIG ca\culaled these percentages by using tfle amount ofprojC'C1 coSl> determined 10 ~ allowable.
         $11.461,424. as opposed to the tOial invoiced eoSlS. $12.816.163. Spccifically. th~ dmft r~po" rellects thal "hI""
         City computed $916.914 for design COSlS by applying Ih~ 8% to CO'1struction cOSIS of 51 1.46\,424 and invoiced for
         90% Oflhat amounl." The questioned 5916.914 design co,;ts represent 7~. oflh~ tOlll invoiced COSIS. nOi 8% as
         indicated in Ifle dmft repon.1lIe draft repon reflects Ihe sanle metltodology in detumining the questiooed
         oonst"'ctioo nllmlgem""t COStS (5437.826) to be 3.82"/•. "These costs represent 3.4% oftlte total invoiced costs.




                                                                 7

Appendix B
Management Comments to the Draft Letter Report




                                                 S«urit)' Admioislrl.lion (TSA)
                                       Response 10 DIIS OIG Drart Report

          Re"ino' olCos'S IIII"Oiced by the City 01Ai/ama, ~org;a. Reluling 10 lhe Maynard H. JlKUon.
            Jr. Inlernational Termil1O/ Checked &gguge Screening ProjeN Under Other TrailSOCliO/l
                   Agreement Number HSTS04-D9·II·RECI5J - FOUO daled January 20. 2012


         R«iImmtodalion I: TSA's Contl'1lctiog Offittr resoh·t the $1 ,354,740 or unsupported
         ro,"-
         TSA Conturs: As indicated abcl\'e. TSA will ...."(If\: with the: City or Atlanta 10 detcnnine the
         amount ordesign and oonstructiOli management costs incurred ror the Checked Baggage
         Inspection System (CBIS) project.




                                                         8

Appendix C
Major Contributors to this Report


                    Roger LaRouche, Director
                    Karl Gallagher, Audit Manager
                    William J. Gillies, Audit Manager
                    Sandra Ward-Greer, Referencer




                                         9
Appendix D
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Departmental Recovery Act Coordinator
                      Acting General Manager, Checked Baggage Division/Program
                        Manager, Electronic Baggage Screening Program, TSA
                      Audit Liaison Official, TSA

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                                          10
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
